<html>
<title> - HALTING THE DESCENT: U.S. POLICY TOWARD A DETERIORATING SITUATION IN IRAQ</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
 HALTING THE DESCENT: U.S. POLICY TOWARD A DETERIORATING SITUATION IN 
                                  IRAQ

=======================================================================



                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON

                     THE MIDDLE EAST AND SOUTH ASIA

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 21, 2012

                               __________

                           Serial No. 112-134

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______




                  U.S. GOVERNMENT PRINTING OFFICE
73-457                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman
CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa<greek-l>
DONALD A. MANZULLO, Illinois         DONALD M. PAYNE, New Jersey--
EDWARD R. ROYCE, California              deceased 3/6/12 deg.
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
RON PAUL, Texas                      ELIOT L. ENGEL, New York
MIKE PENCE, Indiana                  GREGORY W. MEEKS, New York
JOE WILSON, South Carolina           RUSS CARNAHAN, Missouri
CONNIE MACK, Florida                 ALBIO SIRES, New Jersey
JEFF FORTENBERRY, Nebraska           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       DENNIS CARDOZA, California
GUS M. BILIRAKIS, Florida            BEN CHANDLER, Kentucky
JEAN SCHMIDT, Ohio                   BRIAN HIGGINS, New York
BILL JOHNSON, Ohio                   ALLYSON SCHWARTZ, Pennsylvania
DAVID RIVERA, Florida                CHRISTOPHER S. MURPHY, Connecticut
MIKE KELLY, Pennsylvania             FREDERICA WILSON, Florida
TIM GRIFFIN, Arkansas                KAREN BASS, California
TOM MARINO, Pennsylvania             WILLIAM KEATING, Massachusetts
JEFF DUNCAN, South Carolina          DAVID CICILLINE, Rhode Island
ANN MARIE BUERKLE, New York
RENEE ELLMERS, North Carolina
ROBERT TURNER, New York


                   Yleem D.S. Poblete, Staff Director

             Richard J. Kessler, Democratic Staff Director
                                 ------                                

             Subcommittee on the Middle East and South Asia

                      STEVE CHABOT, Ohio, Chairman
MIKE PENCE, Indiana                  GARY L. ACKERMAN, New York
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
JEFF FORTENBERRY, Nebraska           THEODORE E. DEUTCH, Florida
ANN MARIE BUERKLE, New York          DENNIS CARDOZA, California
RENEE ELLMERS, North Carolina        BEN CHANDLER, Kentucky
DANA ROHRABACHER, California         BRIAN HIGGINS, New York
DONALD A. MANZULLO, Illinois         ALLYSON SCHWARTZ, Pennsylvania
CONNIE MACK, Florida                 CHRISTOPHER S. MURPHY, Connecticut
MICHAEL T. McCAUL, Texas             WILLIAM KEATING, Massachusetts
GUS M. BILIRAKIS, Florida
TOM MARINO, Pennsylvania
ROBERT TURNER, New York
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

General Jack Keane, USA, Retired (former vice chief of staff of 
  the United States Army)........................................     6
Lieutenant General James Dubik, USA, Retired, senior fellow, 
  Institute for the Study of War.................................    19
Kimberly Kagan, Ph.D., president, Institute for the Study of War.    27
Colin H. Kahl, Ph.D., senior fellow, Center for a New American 
  Security.......................................................    34

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

General Jack Keane, USA, Retired: Prepared statement.............     9
Lieutenant General James Dubik, USA, Retired: Prepared statement.    22
Kimberly Kagan, Ph.D.: Prepared statement........................    30
Colin H. Kahl, Ph.D.: Prepared statement.........................    37

                                APPENDIX

Hearing notice...................................................    56
Hearing minutes..................................................    57


 HALTING THE DESCENT: U.S. POLICY TOWARD A DETERIORATING SITUATION IN 
                                  IRAQ

                              ----------                              


                       WEDNESDAY, MARCH 21, 2012

                  House of Representatives,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 1:30 p.m., in 
room 2172 Rayburn House Office Building, Hon. Steve Chabot 
(chairman of the subcommittee) presiding.
    Mr. Chabot. The committee will come to order.
    I'd like to take just a moment, if I may, to comment on the 
decision by our esteemed ranking member, the gentleman from New 
York, Mr. Ackerman, who has announced that he will be retiring 
at the conclusion of this session of Congress.
    I've enjoyed working with the gentleman a great deal over 
the years, during his service as chairman and ranking member of 
this subcommittee and on the full committee as well, and other 
capacities in the Congress. He's one of the more articulate 
members of this body, and has brought with him wisdom to our 
debates, as well as a healthy dose of sarcasm, I would say, 
when needed, sometimes maybe not necessarily needed, but 
usually it's a very good thing. But, I've always enjoyed his 
contributions.
    I guess we have plenty of time over the next, 
approximately, a year, a number of months yet in this Congress, 
to pay tribute to Mr. Ackerman. In fact, I'm sure we'll 
probably do nothing more than that for a long time, and that 
would not be enough, I'm sure, that the gentleman would 
probably think, before he walks off into the sunset. But, in 
the wake of his recent announcement, I thought it fitting to at 
least say something at least briefly now, and I know we all 
look forward to working with the gentleman for the rest of this 
Congress, and I know the rest of the members of the 
subcommittee and the full committee wish him well. So, we look 
forward to working with him in the balance of this Congress.
    Thank you very much.
    I want to thank the members who are here and the ones that 
will be coming, and the folks in the audience, and, especially, 
our distinguished panel here this afternoon.
    This hearing is being called to assess the current 
situation in Iraq and how U.S. policy should address it. Since 
the withdrawal of all U.S. Armed Forces from Iraq at the end of 
2011, the situation on the ground has, in my view, degenerated 
significant, in no small part due to a sectarian political 
crisis which has been triggered by the actions of Iraqi Prime 
Minister Nouri al-Maliki. Shortly after the last American 
convoy left Iraq, Maliki issued an arrest warrant for the Iraqi 
Vice President, Tareq al-Hashimi, currently the country's most 
senior Sunni official. This was followed by another provocative 
and divisive decision by Maliki to remove Saleh Mutlaq, Iraq's 
Sunni Deputy Prime Minister, without taking the appropriate 
constitutionally-mandated steps.
    Maliki's actions have been widely interpreted as part of a 
brazen effort to consolidate his power by weakening Sunni 
politicians whom he considers to be threats. And these 
incidents, along with a recent uptick in violence, have set off 
a crisis which, if not checked, has the potential, in my view, 
to sink the entire country back into widespread sectarian 
conflict that so many of our best men and women spent years 
working to contain. Just this morning, al Qaeda in Iraq took 
responsibility for a recent wave of attacks that have claimed 
the lives of over 40 people, and that's just recently.
    Any of these incidents viewed in isolation could perhaps be 
written off as happenstance. When viewed together, however, and 
when viewed in the context of the withdrawal of all U.S. 
military personnel, it is difficult to deny at least some 
causal link. For over 8 years, U.S. servicemen and women have 
labored in Iraq and sacrificed beyond comprehension to achieve 
real tangible gains.
    Despite this, Iraq remains in a precarious position, and it 
seems painfully clear to me, and to many analysts, that Iraq 
requires a greater American investment than this administration 
appears willing to make. Although the Iraqi army has progressed 
remarkably from where it once was, it is plainly clear that 
Iraq is not yet prepared to defend itself from the threat posed 
by its nefarious neighbor to the east. And although Iraqi 
democratic institutions have certainly come a long way over the 
past years, the current political crisis makes it all to clear 
that the work is not yet finished. Many of us in Congress 
warned long before that last convoy left that country of what 
would likely come to pass, and yet the administration failed to 
heed any of the obvious warning signs.
    It is with these concerns in mind that the U.S. and Iraq 
labored to negotiate an agreement which would maintain a small 
U.S. troop presence into 2012. For months the administration 
had allayed Congressional concerns of potential backsliding by 
offering reassurance that the U.S. and Iraq would be able to 
resolve the outstanding differences. Unfortunately, these 
negotiations failed and it is my belief that they failed due to 
mismanagement by the White House.
    Amazingly, however, the White House is now trying to tout 
the lack of agreement as a success, insofar as it has met a 
promise President Obama made as a candidate while campaigning, 
and it is now trying to downplay the current crisis. Saying 
that Iraq is ``secure, stable and self reliant,'' as Deputy 
National Security Advisor Denis McDonough recently did, does 
not make it so. And to borrow a quote from then-Senator 
Clinton, it requires ``the willing suspension of disbelief'' to 
believe that our strategic interests are advanced by 
withdrawing our forces from Iraq at a time when Iranian agents 
seek to harm at every turn our country and its allies. Although 
I understand that Iraq is a sovereign country, I believe there 
is much more we could have done to secure a larger troop 
presence beyond the end of this year. And as a result of our 
inaction, we are left with greatly diminished influence over a 
country that we all had once hoped would be a beacon of 
democracy for the Arab world and a stalwart against the 
repressive regimes which surround it.
    With Iran looming to the east and Syria collapsing to the 
west, Iraq sits in the middle of a dynamic, dangerous, and 
deteriorating region. Iraq is, however, a developing democracy 
and one which the U.S. has a profound interest in assisting. 
This is a time not for us to carelessly cast aside allies, but 
rather to consolidate gains in a region which is being shaken 
to its very foundations. I fear, however, that this White House 
places too high a priority on expediency and convenience, and, 
as a result, we may indeed snatch defeat from the jaws of 
victory.
    I would now like to yield 5 minutes to the gentleman from 
New York, Mr. Ackerman.
    Mr. Ackerman. Thank you very much, Mr. Chairman, and, 
especially, thank you for those very kind words. I look forward 
to working with you under your guidance and the rest of the 
committee for the bulk of this year. I don't know what I am 
going to do when I leave here, but one thing is for sure, I 
certainly will miss all of you.
    A strange narrative has taken root in some circles 
regarding Iraq. In this telling of events, the colossal failure 
and unmitigated disaster that was the war in Iraq was just 
about to turn out to be a huge win for America, until the 
terrorist-appeasing, freedom-hating, socialist Muslim Barack 
Obama snatched bitter defeat from the jaws of victory.
    This tale is untrue. From first to last, it is a lie. Such 
a lie has to be admired for its audacity, but it remains 
untrue, not only in the fervid imaginations of the ideological 
zealots committed to defending the appalling wasteful, stupid 
tragedy that was America's decade of misadventure in Iraq is 
any part of this perverse claim true.
    The very same hucksters of easy glory and empire on the 
cheap are now selling this bundle of lies to expunge their own 
responsibility and hang it instead around the neck of the 
President, who more wisely than many, including myself, opposed 
the misadventure in Iraq from the first place.
    For my part, I can only say that after 9/11, as a New York 
City Congressman, I was too ready to believe the Bush 
administration's warning of an imminent and terrible threat. I 
was, to be blunt, not prepared to accept that the President and 
his principal advisors would lie, misrepresent, and deceitfully 
spin about an undertaking of such magnitude and consequence, 
but they did.
    And much worse than the decision to go to war was the 
tragic, unforgivable ineptitude of both the occupation and the 
initial counter insurgency effort. All the many warnings of 
danger from actual experts on Iraq, and post combat 
reconstruction, both in and out of government, that were 
blithely dismissed in the rush to war, came back to haunt us as 
one by one they came to disastrous fruition.
    We went to war deliberately ignorant and utterly unprepared 
for the aftermath, and thousands upon thousands of Iraqis have 
suffered the consequences of our foolish misadventure. Hundreds 
of thousands became refugees. Thousands were murdered by their 
own neighbors, and vicious ethnic cleansing thousands were 
internally displaced and thrust into bitter poverty. These 
tragedies, though unintended, lie on our Nation. We are 
responsible.
    Iraq, before the war, was an awful place, and SAddam 
Hussein was a vicious, bloody-handed tyrant, whose death should 
not be mourned by none. But, our decision to up end, and upon 
ourselves no less, the seething cauldron of Iraq's sectarian 
animosity, religious zealotry, and ethnic separatism, has to 
rank as one of the stupidest decisions of American foreign 
policy.
    We sent 4,486 of our bravest men and women to their death 
in this farce. More than 32,000 have come home injured, 
crippled, or partially dismembered. The war in Iraq has cost us 
more than $800 billion and the tab is still running with the 
President asking for some $2 billion in FY 13 to continue our 
efforts to help Iraq get back on its feet, as a unified, 
independent, minimally-functioning state. Our financial 
obligations to our veterans is also running in the billions, 
and will not be fully paid for six or seven decades to come.
    So, when I hear now the same cheerleaders for this immense 
and ruinous disaster, lamenting the failures of the Obama 
administration to firmly plant our military in Iraq's bosom, 
when I hear then decrying this President's so-called failure to 
understand Iraqi politics, and when I hear them expanding how 
our righteous powers of coercion could readily set things right 
in Iraq, without cost of complication, I know these ghastly 
lies for what they are.
    Iraq's future is in great doubt, and the failure of Iraq's 
sectarian leaders to forge a more balanced and more viable 
system for sharing power and resources, will continue to 
produce conflict and stagnation until resolved. I believe we 
can and should help them where appropriate, and consistent with 
our own national interest and constrained resources, but, 
ultimately, Iraq's affairs are not ours to arrange, and they 
never rightfully were.
    Thank you, Mr. Chairman.
    Mr. Chabot. Thank you.
    I'd like to introduce our distinguished panel here now this 
afternoon. First, we have General Jack Keane, a Four-Star 
General, completed 37 years in public service in December, 
2003, culminated as acting chief of staff and vice chief of 
staff of the U.S. Army. As the chief operating officer of the 
Army for 4\1/2\ years, he directed 1,500,000 soldiers and 
civilians in 120 countries, with an annual operating budget of 
$110 billion.
    General Keane played a key role in formulating the surge 
strategy in Iraq and continues to advise senior government 
officials on national security and the wars in Iraq and 
Afghanistan.
    General Keane is a career infantry paratrooper, a combat 
veteran of Vietnam, decorated for valor, who spent much of his 
military life in operational commands. He holds a bachelor of 
science degree from Fordham University, and a master of arts 
degree from Western Kentucky University, and we welcome you 
here this afternoon, General.
    And next will be General James Dubik, Lieutenant General 
James M. Dubik, a senior fellow at ISW, currently conducts 
research, rights and briefs on behalf of the Institute. General 
Dubik assumed command of Multinational Security Transition 
Command-Iraq on June 10, 2007.
    During this final command, he oversaw the generation and 
training of the Iraqi security forces. General Dubik has held 
numerous leadership and command positions with Airborne, Ranger 
and Light and Mechanized Infantry Units around the world. He 
holds a bachelor of arts degree from Gannon University, a 
master of arts degree from Johns Hopkins University, and a 
master of military arts and sciences degree from the United 
States Army Command and General Staff College.
    His awards include the Distinguished Service Medal, Defense 
Superior Service Medal, four awards of the Legion of Merit, 
five awards in the Meritorious Service Medal, and numerous Army 
commendation and achievement medals.
    And again, thank you, General, for being here.
    Next I'd like to introduce Dr. Kimberly Kagan, who is the 
founder and president of the Institute for the Study of War. 
She is a well-published military historian, who has taught at 
the U.S. Military Academy at West Point, Yale University, 
Georgetown University and American University.
    Dr. Kagan previously served as a member of General Stanley 
McChrystal's Strategic Assessment during his campaign review in 
June and July, 2009. She conducted nine battlefield 
circulations of Iraq, and is a recipient of the Distinguished 
Public Service Award, the highest honor the chairman of the 
Joint Chiefs of Staff can present to civilians, who do not work 
for the Department of Defense.
    Dr. Kagan held an Olin Postdoctoral Fellowship in Military 
History at Yale, and was a national security fellow in 
Harvard's Olin Institute for Strategic Studies. She received 
her B.A. in classical civilization and her Ph.D. in history 
from Yale University.
    Thank you for being here, Doctor.
    And, our fourth and final witness will be Dr. Colin Kahl. 
Dr. Colin H. Kahl is a senior fellow at the Center for a New 
American Security, focusing on Middle East security and defense 
policy, and an associate professor in the Security Studies 
Program at Georgetown University's Edmund A. Walsh School of 
Foreign Service.
    From February, 2009, through December, 2011, Dr. Kahl 
served as the Deputy Assistant Secretary of Defense for the 
Middle East. In this capacity, he played a lead role in 
designing and overseeing the draw down and transition strategy 
in Iraq, and shaping the Pentagon's efforts to counter Iran's 
nuclear weapons ambitions.
    In June, 2011, Dr. Kahl was awarded the Secretary of 
Defense Medal for Outstanding Public Service by Secretary 
Robert Gates. Dr. Kahl holds a Ph.D. from Columbia University 
and a B.A. from the University of Michigan.
    And, we welcome you here as well, Doctor.
    As I said, we have a very distinguished panel here this 
afternoon, and each witness will have 5 minutes. There will be 
a yellow light that should be displayed when you have 1 minute 
to wrap up. The red light will come on. We would appreciate it 
if you would complete your testimony by that time.
    And, General Keane, we will begin with you.

  STATEMENT OF GENERAL JACK KEANE, USA, RETIRED (FORMER VICE 
           CHIEF OF STAFF OF THE UNITED STATES ARMY)

    General Keane. Mr. Chairman, Ranking Minority, 
congratulations, Mr. Ackerman, on your distinguished career, 
and members of the committee thank you for inviting me to 
testify today.
    It is always an honor to join you, as it is to be with my 
distinguished colleagues whom I greatly admire, General Retired 
Jim Dubik, a true American patriot, continues to serve so 
admirably, and Dr. Kim Kagan, who I spent many weeks with in 
Iraq conducting assessments for General Petraeus, and who 
provides truly outstanding leadership as President at ISW, 
directing their unique and significant contributions. I am also 
delighted to be here with Dr. Kahl, although I don't have the 
pleasure of knowing him as well as I know my other two 
associates.
    My remarks today are intended to provide incite to the 
current state of play in Iraq, and what the implications are 
for the United States.
    First and foremost, Iraq is a country of strategic 
consequence, with an educated class of people, rich in oil 
reserves, and one of only two Arab/Muslim countries that elects 
its own government.
    It is a tragic foreign policy blunder that the United 
States forfeited our hard-earned influence in Iraq by not 
leaving a residual military force in place. The purpose of this 
force was to preserve and strengthen a fledgling democracy, to 
continue to assist the growth and development of the Iraq 
security forces, and most importantly to counter the Iranian 
influence.
    The precedent for such a residual force was successfully 
demonstrated in post conflict Germany, Italy, Japan and Korea.
    The origins of this blunder began with the arrival of our 
U.S. Ambassador, who succeeded Ambassador Ryan Crocker, who had 
just completed a 2-year successful assignment during the 
critical surge period from 2007 to 2009. Almost immediately, 
our envoy began to put the Maliki government at arms length, 
despite the fact that the Iraq Government the previous year 
initiated, and insisted on, a strategic framework agreement of 
what was, in fact, an enduring strategic partnership with the 
United States.
    The United States Government rhetoric, particularly, from 
the President of the United States, emphasized ending the war 
and pulling out the troops, despite a very successful, first 
ever, provincial election in January in 2009, where all 
previously appointed governors were defeated, overwhelmingly 
secular candidates were elected, and Iran surrogates suffered a 
stunning defeat. This major political achievement was largely 
ignored by U.S. policymakers.
    In time, Prime Minister Maliki, I am confident, came to 
recognize that his relationship with the United States 
Government had change dramatically from what was previously his 
experience under the Bush administration. This came to a head 
when General Lloyd Austin, the Commander of Multinational Force 
Iraq, recommended a residual force of 26,000, while the 
administration's negotiating team, who came to Iraq, put a 
force of 10,000 on the table.
    Prime Minister Maliki, who was always a handful, and is a 
bit of a nefarious caricature, instinctively knew this was not 
a serious proposal with real capabilities and results, and we 
are painfully aware that no residual force remained.
    So, where are we now? Not surprising, the country with the 
most influence on Iraq's leadership is no longer the United 
States. It is sadly Iran. Meanwhile, these are the major 
trends. Prime Minister Maliki has consolidated power and 
cracked down on his major opposition party, Iraqiya. Iraqiya is 
overwhelmingly Sunni. He does not want the Sunnis without some 
political influence, he just wants them to be the Sunnis he can 
manage and control.
    Prime Minister Maliki, while opposed to calls for 
federalism in principle, is not opposed to Sunni control of 
Anwar and Nineweh Provinces, but he is opposed, and will 
continue to block, any such movement in the Sunni/Shia 
provinces Diyala and Saladin. He knows full well this can 
spread to the southern Shia Provinces if he permitted them to 
get away with it.
    While Muqtada Al-Sadr was the critical support Maliki 
needed to form a government, they are, in fact, political 
enemies. Maliki sees him as a greatest long-term political 
threat, and, thus, is trying to modulize Sadr while encouraging 
other Shia factions. Sadr is pushing back by claiming the 
Maliki government is incompetent and threatening that he will 
pull out of the government.
    The Kurds are weakened politically, and any opportunity 
they may have to entertain to seize Kirkuk has past. They share 
17 percent of the oil revenue and are dependent on Baghdad.
    While Maliki's consolidation of power, and the purge of 
Sunni opposition leaders is the most significant internal 
development, the major external development is the influence of 
Iran, and the United States is incapable of challenging Iran's 
political pressure.
    The Turks probably have more influence than the United 
States sadly. No Iraq politician can take a step against Iran. 
Their influence is on the rise, and Iraq and Iran's foreign 
policy are aligned. Indeed, Iraq is supporting the Iranian 
pressure on toppling the Bahrain monarchy with the stated 
purpose of expelling the U.S. 5th Fleet.
    The infamous Ahmed Chalabi is very outspoken in support of 
it. And, of course, most ironic is Iraq's support of the Assad 
regime, who facilitated the al-Qaeda transportation networks 
through Syria into Iraq, and provided refuge for many of the 
Iraq Sunni insurgent leaders and financial backers.
    Iraq's support is more than just political and financial, 
but provides Shia militia to assist the Iranian Quds force and 
the Lebanese Hezbollah to kill the Syrian people and fight 
against a free Syrian army.
    Security in Iraq has deteriorated and is estimated to be 
two to five times as high as reported. The reality is, the 
United States has lost much of the intelligence eyes and ears 
previously enjoyed.
    As a result of these trends, certainly the United States' 
relationship has changed dramatically, and Prime Minister 
Maliki is playing a dangerous political game to enhance his 
power, to diminish Sunni and Kurd influence, while not totally 
disenfranchising the Sunnis, which could lead to a civil war.
    Moreover, he will clash at some point with Sadr, which 
could force a constitutional crisis, if Sadr pulls out of the 
Coalition and Maliki refuses to form a new government or step 
down, which is a likely outcome.
    Let's face it. Maliki is manipulating the United States, 
and nothing was more evident than a number of months ago when 
he visited the United States and took a victory lap with our 
President on the war being waged and being ended, and then 
returns to Iraq and purges his political opponents.
    So, what are the implications for the United States? First 
and foremost, recognize that the character of the U.S. 
relationship with Iraq has changed, and, therefore, so must our 
means to influence. I believe we must move to much more of a 
hands on, condition-based, and likely more confrontational 
relationship.
    For example, we just delivered the last M1 Abrams tank, No. 
140, and we completed another foreign military sale to provide 
F16s, despite the fact that Iraq is operating against U.S. 
interests in Syria, Bahrain, aligning itself with Iran, and 
deposing political opponents.
    While we, the United States, no longer enjoy the political 
clout a residential military force would provide, we are not 
without influence. Where is the public condemnation by the 
United States and the International Community, particularly, 
those who shared in the sacrifice to free and stabilize Iraq? 
Where is the condemnation and sanctions against Iraq for 
supporting the killing of innocent Syria citizens, and 
supporting the overthrow of the regime in Bahrain?
    If Iraq is now aligned with our number one strategic enemy 
in the region, Iran, our relationship must change despite the 
extraordinary support we provided in liberating Iraq in 2003, 
and stabilizing it against internal and external insurgency. 
Facing up to this harsh truth now is, and must be, our first 
priority. However, we must embrace Iraq on multiple levels 
beyond the government-to-government relationship. Key to that 
is the civil society relationship, which is our private sector, 
non-government organizations, businesses, investment councils, 
cultural and education exchanges.
    Despite the fact the government, obviously, controls the 
military, we should foster a middle to middle relationship, 
which should include Iraq officers participating in education 
and training opportunities in the States. Training assistance 
visits to Iraq, and even opportunities for combined training 
exercises in Iraq, should be part of our plan.
    There is a next generation of officers who fought side by 
side with us, who will eventually be the Iraq senior leaders, 
and we should develop this relationship.
    Thank you, and I look forward to your questions.
    [The prepared statement of General Keane follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Chabot. Thank you, General.
    And, now we'll hear from General Dubik.

  STATEMENT OF LIEUTENANT GENERAL JAMES DUBIK, USA, RETIRED, 
         SENIOR FELLOW, INSTITUTE FOR THE STUDY OF WAR

    General Dubik. Thank you, Mr. Chairman, Mr. Ackerman, and 
members of this distinguished committee. I'm very grateful for 
the opportunity to speak about Iraq, specifically, the Iraqi 
security forces.
    I believe that while the situation in Iraq is complex, the 
main issues with respect to the security forces are relatively 
straightforward, and the solutions are also relatively clear.
    My testimony derives from the fact that Iraq is an 
important country to the United States. Our security goals 
relative to Iraq are also important. As last stated by the 
administration, those goals are listed in my written testimony.
    The negative influence of Iran and the continue insurgence 
attacks, the porous borders, the enduring presence of al-Qaeda, 
all are threats to our interest, and to the Iraqi progress.
    U.S. strategic inattention is also a threat. Though the 
U.S. and Coalition part to the fighting is over, the war is 
not, ending the fighting and ending the war are two related but 
distinct activities. To end this war in a way to create a 
better peace, and to secure our Nation's interest, we must 
remain involved in Iraq.
    Yes, in my view, a small U.S. footprint, low-cost approach, 
is correct, and I do not advocate returning to large numbers 
and large spending. But, a small footprint and low cost should 
not mean inadequate relative to our own national security 
objectives.
    This year the trend in violence is increasing, and the 
progression of attacks is even more disturbing, from isolated 
individual attacks to isolated small-scale coordinated attacks, 
to more frequent small-scale coordinated attacks, and now just 
yesterday to a large scale nation-wide coordinated attack.
    The next move along this continuum is sustained large-scale 
coordinated attacks. This is not good direction. These attacks 
are aimed at eroding Iraqi sovereignty, self-reliance, 
increasing instability, creating more distance between the U.S. 
and Iraq, and to prevent Iraqi economic growth. And, I think 
the case can be made that these attacks will move Iraq closer 
to Iran than to the United States. That is, these attacks are 
directly countered to our security goals.
    Granted that these are Iraq's problems to solve, and the 
solutions are mostly political. Granted also, the Iraqi 
security forces, military and police, have performed better 
than many had predicted, but the Iraqi security forces still 
need our help, and there are gaps in our current strategy.
    The 150 plus members of the Office of Security Cooperation 
in Iraq, and the current Department of State's approach to 
police training, are unlikely to secure our interest. Both need 
some modifications.
    In the military side of things, we cannot execute our 
current plan to use exercises in a rotational presence, without 
some form of strategic framework agreement or status of forces 
agreement. So, the first requirement is to be more aggressive 
in negotiating the proper set of agreements so that our 
security interests and the security interests of Iraq both be 
achieved.
    Even as this negotiation goes on, I believe there are five 
important areas where we can advanced in the meantime. First, 
intelligence. The U.S. should provide, in my view, in all the 
right ways to protect that which needs protection, direct 
support to the Iraqi police, military counterterrorist units. 
Intelligence-based operations are key in all forms of war, more 
important counterinsurgencies, and, perhaps, most important at 
the end are the counterinsurgencies. The recent nationwide 
coordinated attacks demonstrate that Iraqi intelligence is 
deficient. Our goals would be better served if we provided 
direct intelligence support.
    Second, border security. The Iraqi borders are too porous. 
A nation that cannot control its borders is less sovereign than 
one that can. Not only would better border security contribute 
to producing illicit trade and corruption, it would also 
decrease various nefarious actors from crossing into Iraq, and 
from Iraq into Syria. The Iraqis want to build this capability, 
and we should do all we can to accelerate their desires.
    Third, foreign military sales. The U.S. foreign military 
sales program is too lethargic, too bureaucratic, to serve our 
Nation's interests in Iraq. Three improvements are necessary. 
First, during the surge period the Defense Department set up a 
special task force to accelerate processing of cases and 
delivery of equipment. This special task force should be 
resurrected and placed once again directly under the Secretary 
of Defense. Second, more case officers should be assigned to 
the Office of Security Cooperation in Iraq to help expedite 
case development within the Ministries of Defense and Interior. 
And third, Iraq should be granted a special status that allows 
them to pay for their FMS cases, as those cases are executed. 
Right now, they are still required to place 100 percent of the 
cost of a case up front, even if this case is to be executed 
over a number of years. Granting them this special status would 
make purchase of U.S. equipment more attractive.
    Fourth, police development. A better police force is linked 
to each of the U.S. security interests. Yet, for whatever set 
of reasons that are opaque to me, any objective assessment of 
the current State Department plan to assist the Iraqi police 
must be called inadequate. The Iraqi police are brave and 
dedicated. True corruption remains too present, but we should 
remember that the Iraqi police have suffered 9,000 casualties, 
deaths, between 2003 and 2011, far more than any other 
professional group. They remain one of the main insurgent 
targets. The Iraqi police are trying desperately to make their 
country safer. They are well on their way, but they still need 
our help as well.
    When last I spoke to the Deputy Minister of Interior, Adnan 
Al-Asadi, he acknowledged his police need help in many areas, 
and that he would like this help to come from the United 
States. But, as he said publicly, the current plans are too 
costly and deliver too little to what his police actually need.
    Number five, military professionalization and leader 
development. This is a generational challenge that has already 
started, with the expansion of the US./Iraqi relations that 
formed during the war. English language proficiency is a 
limiting factor in expanding Iraqi attendance at U.S. or NATO 
schools, but movement toward professionalization can be 
accelerated by expanding capacities of schools in Iraq. Senior 
Iraqi military officials would welcome this kind of 
acceleration.
    There are other areas in which the Iraqi security force 
capacity is deficient, and I've listed them in my testimony. 
But, the top five that I mentioned here are near-term security 
force capabilities that are both in our Nation's interest and 
can be largely paid for by Iraq.
    We nearly lost this war once. Defeat was averted by 
combined efforts of U.S./Iraqi and coalition security forces, 
diplomats, U.S. and coalition Iraqi political leaders, and the 
Iraqi people themselves, turned against insurgency. Following 
the success of the surge period, we drew down our forces in a 
responsible way, and although the US. coalition fighting is 
over, our relationship should not end.
    Thank you very much. I look forward to questions and 
discussion.
    [The prepared statement of Lt. General James Dubik 
follows:]
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                              ----------                              

    Mr. Chabot. Thank you, General.
    Dr. Kagan, you are recognized for 5 minutes.

 STATEMENT OF KIMBERLY KAGAN, PH.D., PRESIDENT, INSTITUTE FOR 
                        THE STUDY OF WAR

    Ms. Kagan. Thank you very much, Mr. Chairman, Ranking 
Member.
    Iraq is not heading in a good direction. Administration 
talking points attempt to deflect criticism by the President, 
by comparing conditions today with conditions at the height of 
violence and the height of the surge in 2007.
    Vice President Biden, National Security Advisor Tony 
Blinken, recently noted in a public speech that weekly security 
incidents have fallen from 1,600 in 2007 and 2008 to 100 today. 
He, and others, dismissed the notion that Iraq is heading 
toward insurgency, terrorism and civil war. Reality is 
different.
    The discussion about security incidence is, in fact, 
misleading. No one suggests that Iraq today is as bad as it was 
at the very height of violence. Neither is it true, however, 
that violence is continuing to fall.
    Dr. Mike Knights, the Lafer Fellow at the Washington 
Institute for Near East Policy, recently noted that according 
to an incident-based database that he produces at the 
Washington Institute for Near East Policy, violence in February 
was nearly double that of what it was in November, November, 
2011.
    Comparing violence today with violence in 2007 misses the 
point. The fact is that violence has been increasing since the 
Obama administration announced that it would be withdrawing 
completely from Iraq, and the trends are getting worse.
    These comparisons are also misleading, because they are not 
apples to apples comparisons. You can see in my written 
testimony for a fuller description of this problem, but the 
violence trends that we are seeing today are now almost all 
Iraqi-on-Iraqi violence, which is exactly the metric we need to 
be looking at in order to see indications of incipient civil 
war.
    And, we can see such indications in the locations in which 
violence is flaring. According to Dr. Knights, violence is 
increasing in the areas that were traditional sectarian flash 
points in Iraq, and bases for both al-Qaeda in Iraq and 
Baathist insurgents. Diyala Province is increasingly unstable, 
with violence in both Sunni and Shia areas.
    Historical AQI bases in Fallujah, Taji and Abu Ghraib, 
appear to be reactivating. Another traditional AQI base in 
Suwayrah in northern Wasit Province, has been reactivated and 
is being used to protect terrorism into the southern Shia 
heartland. And, in what used to be known as the Triangle of 
Death, we see, again, the re-emergency of a flash point and a 
facilitation area for attacks into Baghdad.
    This activity suggests that what we had predicted would 
occur after the complete withdrawal of U.S. forces has, indeed, 
begun. Al-Qaeda in Iraq, in the Islamic State of Iraq, which 
had been badly damaged by Iraqi and Coalition operations during 
the surge, are reconstituting in their historical safe havens. 
We see a spectrum of violence, including ISI attacks, against 
collaborators, so-called, and former Sons of Iraq, ISI attacks 
against Iraqi Government and security officials, conflict with 
Muqtada Al-Sadr's movement, and conflict along the Arab-Kurd 
seams, particularly, in the disputed territory.
    Three months after the withdrawal of American forces, it is 
far too soon to declare that civil war is not coming to Iraq, 
particularly, in light of the indications suggesting that it 
is.
    At least some of the instability is being driven by an 
increasingly sectarian political struggle in Baghdad. Prime 
Minister Maliki regained his premiership after failing to 
secure a plurality of the vote in the 2010 parliamentary 
election, by agreeing to a number of conditions that would 
ceded some real power to a wider cross sectarian and cross 
ethnic coalition, including the Iraqiya party, the party that 
did win the plurality of votes, and the Kurds. This concord, 
the agreement has been unilaterally stopped by Maliki, who has 
refused to abide by its conditions or implement its provisions, 
and is talking about a national dialogue or conference at some 
time to come, in which this issue will come back to the fore.
    More so, Maliki has accelerated a pattern of sectarian and 
political purging within the security forces, and within the 
highest level of the Iraqi Government. For example, the 
movement of the Baghdad brigade against Vice President--Sunni 
Vice President Tareq al-Hashemi, and his home causing the Vice 
President to lead into the Kurdish region, and right now Prime 
Minister Maliki is preparing to try Vice President Tareq al-
Hashemi in absentia.
    He subsequently deposed Sunni Deputy Prime Minister Saleh 
Mutlaq, and banned him from participating in the Council of 
Ministers, even though he did not obtain a parliamentary vote 
of new confidence as the constitution requires.
    Maliki has promoted loyal Iraqi security force commanders 
by appointing them in acting positions, avoiding the requisite 
parliamentary approval, and at the same time he has fired or 
arrested hundreds of current and former security force 
personnel over alleged ties to Baathism or terrorism.
    The Sunni Arab population in Iraq is now under great 
pressure. Maliki disbanded the Awakening Councils and stopped 
the efforts to incorporate Sons of Iraq into the government and 
security forces, as U.S. forces were withdrawing. The 
elimination of Hashemi law from the government strips the more 
conservative and centrally located Sunnis of emblems of their 
government representation. Increasing ISI and Baathist activity 
have been met with increasing Iraqi security forces activities 
in Sunni areas, including widespread arrests, targeted strikes, 
sweeps, and the removal of local commanders in Anbar and 
elsewhere.
    Maliki has also attempted to weaken and fracture provincial 
councils in Dayl and Saladin, prompting them to declare their 
intention to seek Federal status, and Anbar has followed their 
lead.
    Maliki has denounced these attempts to exercise powers 
explicitly granted to the provinces by the constitution, and 
used force to prevent them from moving forward. In this 
context, it is not surprising that elements of the Sunni 
population may be feeling increasingly disenfranchised, 
vulnerable to violent groups, and more susceptible to the 
blandishments and intimidation of insurgents and terrorists.
    This is exactly the Iraq that the United States did not 
want to leave behind. Presidents Bush and Obama wanted an Iraq 
that was no longer a safe haven for terrorists, but the 
terrorists are returning. More still, AQI has begun projecting 
violence from Iraq into Syria, reversing the historical rat 
lines that its reported attacks against the U.S., and Iraqi 
forces in Iraq.
    The U.S. wanted an Iraq in which the Sunni minority felt 
that its stake in government was safe and effective, and in 
which elections mattered, and in which violence would not be 
used to revise political settlements. Instead, the U.S. has 
tolerated, and even encouraged, the overturning in electoral 
result, and has stood by Maliki and his government, as it has 
used force to revise political settlement it had agreed to.
    Tony Blinken, Vice President Biden's National Security 
Advisor, said that Iraq today is less violent, more democratic, 
and more prosperous, and the U.S. more deeply engaged than at 
any time in recent history. The fact that Iraq is less violent, 
more prosperous, more democratic, and with more U.S. 
engagements than it was under Saddam Hussein is the result of 
the efforts of the previous administration, not this one. But, 
Iraq is more violent, less democratic, and the U.S. less 
engaged than it was 6 months ago, and it has poisoned the 
knife's edge of a civil war. The United States has not achieved 
its core national security objective in Iraq.
    Thank you.
    [The prepared statement of Kimberly Kagan follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Chabot. Thank you very much, Doctor.
    Our final witness this afternoon will be Dr. Kahl. You are 
recognized.

STATEMENT OF COLIN H. KAHL, PH.D., SENIOR FELLOW, CENTER FOR A 
                     NEW AMERICAN SECURITY

    Mr. Kahl. Chairman, Ranking Member, distinguished members 
of the committee, thank you for inviting me to talk to you 
today, again, about the situation in Iraq. I was up here 
frequently in my previous post, and I should reinforce the 
point that I'm up here today in my individual capacity, 
obviously.
    Iraq is undeniably more stable, more sovereign, and more 
self-reliant than it was 3 years ago, when the Obama 
administration came into office. The country remains a highly-
imperfect experiment in democracy, and the security and 
political environment remains turbulent. And, Iraqi leaders 
must address lingering political challenges in the years ahead 
to avoid back sliding toward greater instability.
    But, Iraq is not nearly as fragile as some of the other 
witnesses on this panel suggest. There has been a discernible 
uptake in high-profile attacks by al-Qaeda in Iraq since 
December. It is not yet clear whether this represents a short-
term spike or a new steady-state reality in the face of 
diminished pressure against AQI networks.
    However, it is important to remember that these types of 
attacks occurred even when we had 150,000 troops in the 
country, or when we had 50,000 troops in the country, and 
likely would have continued to occur even if we had had 5,000, 
10,000 or 20,000 troops left in the country after 2011.
    Moreover, although the attacks clearly demonstrate that AQI 
remains a deadly terrorist organization, they are not, as Dr. 
Kagan asserts, a nationwide insurgency. They hold no territory. 
They do not have widespread popular support among Sunni Arabs, 
and nor have AQI attacks sparked the type of militia 
mobilization or tit-for-tat sectarian bloodshed so common in 
the 2006-2007 period.
    The Iraqi security forces continue to enjoy substantial 
overmatch, vis-a-vis AQI and other Sunni militant groups. As 
such, it remains the assessment that these groups do not 
currently represent a strategic threat to the viability of the 
Iraqi state.
    The increase in AQI activity since December 
notwithstanding, open source reporting that's used by the U.S. 
intelligence community suggests that overall levels of violence 
do not appear to have significantly increased, and remain at 
much lower levels than they did during the 2005-2007 period, 
contradicting the statistic that Dr. Kagan cites.
    In particular, Shia militant attacks are down 
substantially, in large part due to the withdrawal of U.S. 
forces. Levels of violence remain intolerable and unacceptable 
to the Iraqi populous, but Iraq is not on the cusp of falling 
back into civil war.
    Political tensions have also been running high in recent 
months. Since December, several moves by Prime Minister Maliki, 
noted by our witnesses and by the chairman, most notably 
accusations that Vice President Tareq al-Hashemi was running a 
death squad out of his office, haven't seen its attempts to 
side line prominent Sunni members of the Iraqiya political 
block.
    However, with the active involvement of U.S. diplomats in 
Iraq, and the Vice President's office, the political crisis has 
abated, with Iraqiya ending its boycott of the Council of 
Representatives and Council of Ministers, and with President 
Jalal Talabani putting in place a senior leader process that 
aims to address the broader set of power sharing arrangements 
animating crisis. This is good news.
    So long as Iraq's major factions remain committed to the 
political process to resolve their disputes, political crises 
like these are unlikely to lead to Iraq's unraveling. Still, 
these crises are symptoms of deeper political challenges that 
have to be overcome.
    Outstanding requirements for lasting stability include, 
reining in extra-constitutional powers accrued to the Office of 
Prime Minister, and fully implementing power sharing 
agreements, resolving lingering Arab/Kurd disputes, addressing 
endemic corruption and problems with essential services, and 
improving protections of human rights and the commitment to the 
Rule of Law.
    The United States must continue to help Iraqis find 
solutions to these challenges. Our Embassy in Baghdad is, and 
should remain, deeply involved in helping Iraqi leaders 
navigate their unresolved political challenges.
    Although we cannot dictate terms to the Iraqis, we should 
criticize abuses of power when they occur, and we should use of 
considerable relationships with all sides to act as a convener, 
facilitator, and honest broker, helping to identify and push 
political compromises.
    I now want to say a few things about Iranian influence. 
When U.S. forces departed in December, there was considerable 
anxiety in Washington, and, apparently, still on this panel, 
and in the region, that Iran would fill the void left by our 
forces. In actuality, that hasn't happened. To be sure, Tehran 
enjoys considerable influence in Iraq, as we do, but the 
narrative of Iranian domination is widely exaggerated.
    A profound sense of Iraqi nationalism, lingering grievances 
from the Iran/Iraq war, and competition between the religious 
establishments in Najaf and Qom, as well as the desire among 
Iraqi leaders, including most Shia politicians, for strategic 
partnership with the United States and positive relations with 
other countries in the region, put fundamental limits on 
Baghdad's willingness to do Tehran's bidding.
    Signs of independence from Iran can be seen even in areas 
where Tehran has exerted extraordinary pressure. Last summer, 
Maliki's government sent clear messages to Iran demanding that 
they curtail support for Shia militants attacking our troops.
    More recently, Syria, actually, provides an example of this 
as well. Iran has pressured Iraq to support Bashar al-Assad 
battle regime in Syria, but Iraq has come around to supporting 
the Arab League's position calling for Assad to step down, and 
Maliki did not invite Syrian representatives to the upcoming 
Arab League Summit in Baghdad.
    According to media reports, Iraq has also asked Iran to 
stop using Iraqi air space to ship weapons to Assad's regime, 
although Iraq has limited ability to enforce their air space 
violations.
    There will certainly continue to be times when Iraq 
cooperates with Iran in ways that we don't like, but Iraq is 
not, and will not, be a puppet dangling at the end of Iran's 
strings. Withdrawing of U.S. forces did not represent the end 
of our security relationship with Iraq. It represents instead a 
beginning of a new phase in that relationship. The Obama 
administration continues to be committed to a long-term 
security partnership with Iraq, and I urge Congress to be 
supportive of U.S. and Iraqi Government efforts to cement that 
relationship.
    Contrary to the assertions of some critics, the inability 
to reach a follow-on security agreement in 2011 is not due to 
administration political considerations and absence of U.S. 
political will or negligence. Indeed, at great political cost 
President Obama signaled his willingness to leave a modest 
training force in Iraq beyond 2011, upon the request of the 
Iraqi Government, and the administration invested a lot of 
energy in that effort.
    The inability to reach an agreement stems from Iraqi 
domestic political concerns, not ours, and the unwillingness 
among all of Iraq's factions to submit an agreement to the 
Council of Representatives to ensure binding legal protections 
for our forces, something that everybody in the administration, 
and I believe most Members of Congress, agreed with.
    Despite the absence of a follow-on accord, the 
administration has established a sizeable Office of Security 
Cooperation, to ensure a robust long-term security 
relationship. The Office of Security Cooperation oversees 
nearly $10 billion in foreign military sales, making iraq the 
fourth largest FMS customer in the region and the 9th largest 
in the world. And, this alone guarantees a close relationship 
with the U.S. military for decades to come.
    The OSCI and the U.S. Central Command are also committed to 
maintaining active engagement with the ISF, aimed at deepening 
security cooperation and addressing some of the gaps that 
General Dubik pointed to.
    U.S. forces may have departed Iraq, but the Obama 
administration remains thoroughly engaged and committed to 
helping Iraqis build a more peaceful and prosperous future. It 
is imperative that we, as a Nation, share this commitment.
    Thank you very much.
    [The prepared statement of Colin Kahl follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Chabot. Thank you very much, Doctor.
    We do have a series of votes on the floor for, my guess is 
we are looking at 40 minutes, 45 minutes, and we have to go 
over and vote. And then, we will be right back, and then the 
panel members will ask questions.
    So, we will be in recess here for a little bit. Thank you.
    [Recess.]
    Mr. Chabot. The committee will come back to order. I want 
to thank the witness panel and members of the audience for your 
patience. We are now finished with votes on the floor, and so 
we are back in session here.
    I'd like to address the first question to you, General 
Keane. I would welcome the comments from any of the other panel 
members to this question, too.
    In your testimony, you stated, and I quote,

        ``It is a tragic foreign policy blunder that the U.S. 
        forfeited our hard-earned influence in Iraq by not 
        leaving a residual military force in place. The purpose 
        of this force was to preserve and strengthen a 
        fledgling democracy, to continue to assist the growth 
        and development of the Iraq security forces, and most 
        importantly to counter the Iranian influence.''

    As I mentioned in my opening remarks, this is a fear that I 
have had for a long time, and I am really amazed that anyone is 
surprised by the recent backsliding in Iraq, when you consider 
the fact that our troops are now out.
    Do you believe that the current crisis in Iraq could have 
been averted had the U.S. maintained a relatively small or 
whatever number, I don't know if it was 20,000, or 10,000, or 
30,000, but if we had maintained some troop presence do you 
believe that we could have averted some of the problems that we 
are seeing there now?
    General Keane. Well, I honestly don't know for sure, but 
this much I do know. We kept our forces post conflict, you 
know, in World War II and the Korean War, because we clearly 
wanted to maintain influence. And, that is what this was about. 
It was about maintaining influence.
    And, the influence we had with Prime Minister Maliki, as I 
said before, he always was a handful, and he has a dark side to 
him, to be sure. And, left to his own devices, that dark side 
manifests itself.
    But, we were all in with Maliki. Obviously, we had lots of 
forces there, and we had the extraordinary capacity of Ryan 
Crocker to shape and influence him. Maliki, by and large, was 
moving in the right direction, even though at times he would 
frustrate us.
    I think Maliki, because we stood apart from him very 
quickly when the new administration came in, he quickly 
realized that he had a different relationship with us. What was 
so astounding about that is, it was Maliki that insisted on the 
strategic framework agreement, not us. We began to negotiate 
over a status of forces agreement. It was Maliki that said, no, 
I want a long-term strategic partnership with the United 
States, that's the first thing I will negotiate, not force 
levels. This was 2009, and we hammered out that agreement. I 
was there for part of those negotiations. So, that was 
extraordinary. It was a pleasant surprise that that's what they 
wanted.
    But, certainly, in 2009--that was 2008, excuse me, 2009, 
that relationship deteriorated gradually over time, and it was 
accented when General Austin had requested the 26,000 forces to 
meet all the requirements he had, and the President's 
negotiation team came in with 10,000. Maliki knew right then 
and there that this force would not have the capabilities that 
they needed, and that there was a different agenda on the 
table.
    Now, people want to blame the Iraqi Government and Maliki 
for us winding up with no force levels, and the degree of 
immunity surrounding our forces. I believe those are false 
issues. What really took place is a relationship that grew 
apart over a 2-year period, that's so deteriorated that we 
wound up with no force levels at all. And, certainly, the 
activity that Maliki has been exercising since that level is 
dramatically different than what was taking place prior to 
2009, when we did have that kind of influence over him.
    I believe we would have continued to have some influence to 
shape his geopolitical thinking, if we had a residual force. 
But, equally important, had an administration that was focused 
on the strategic partnership and it wanted to advance that 
partnership, was as important as the forces themselves.
    Mr. Chabot. Thank you very much.
    I've only got about 30 seconds left.
    Dr. Kagan, why don't we go to you at this point. I have a 
short period of time.
    Ms. Kagan. Thank you very much.
    Of course, we cannot tell how Iraq would have been 
different because that's a counterfactual question. What is 
certain, and very important here, is that the United States has 
chosen not to use influence that it has, or had I should say, 
with the Iraqi Government over the course of 2009, and 2010, 
and 2011. And, as General Keane said, therefore, found itself 
with less leverage than it needed to have in negotiating a 
long-term presence of troops.
    Secondly, I think it is also important to note, and to ask, 
whether it is really technically necessary for a Council of 
Representatives of any country to approve immunities and set up 
force agreements between the United States and their countries. 
I am not aware that that is a standard that we hold all 
administrations, governments and regimes to, and, therefore, in 
a certain sense the constraints that the administration placed 
on itself exacerbated the crisis within Iraqi politics that, 
ultimately, caused the Iraqis to decide, and the administration 
to decide, to pull forces out.
    Mr. Chabot. Thank you very much. If I heard you right, I 
think, perhaps, it was used as an excuse rather than something 
legally that we were bound by. But, I am out of time, so I will 
yield for 5 minutes to the gentleman from New York.
    Mr. Ackerman. Thank you, Mr. Chairman.
    I am somewhere in between the Beatles and Alice and 
Wonderland right now. I am hearing the rewriting of a song, and 
it seems to be coming out give war a chance, and I am viewing 
the whole thing through the looking glass, and everything is 
coming in back upside down and backwards.
    I just head two different things. One, ``that is was always 
about exerting influence.'' I remember voting to give the 
President the authority to go after terrorism, because of 
weapons of mass destruction. I did not vote to kill 4,300 or 
have killed 4,300 and change American men and women to exert 
influence. It was to protect the United States against an 
eminent threat of danger.
    I remember the President, President Bush, who I voted to 
give him the authority to do all this, landing on a ship, 
aircraft carrier, with the banners and the band, that the 
mission was accomplished. I do not know how this continues to 
go on, the band plays on.
    It is often attributed to President Obama, and I just heard 
it just again from the good Doctor, but it is really President 
Bush and his administration, under that administration, that, 
actually, negotiated the withdrawal of forces, under two 
separate treaties that were signed on November 17, 2008. It was 
not this administration. That strategic framework agreement 
specified Bush specified, President Bush specified, we signed 
it under his leadership, that the United States may not ``seek 
or request permanent bases or permanent military presence in 
Iraq.'' The security agreement established a deadline of 
withdrawal for all U.S. forces. That's President Bush, not 
President Obama. They are pinning the tail on the wrong donkey.
    Maybe you can help us out on that, Dr. Kahl.
    Mr. Kahl. Well, I will defend the donkey that I rode on for 
three--the democratic donkey I guess in this case.
    You know, I took 16 trips to Iraq in the last 3 years. I 
sat where I met with all of our officials there, all the senior 
Iraqi officials involved in these negotiations. I sat in 
countless meetings in the situation room at the deputies and 
the principals level, and met with our senior military 
commanders on a weekly basis on this issue. So, I think I can 
speak with a fair amount of authority about what has been 
described up here. I just cannot agree with the reality as 
portrayed with the rest of the witnesses.
    It is true that General Austin proposed a range of options, 
the highest one being 23,000, not 26,000, but a range of 
options, including a number of options that were much lower. 
So, let us think that clear.
    It is also true that the larger options largely envisioned 
a very robust mission set in northern Iraq, which proved, 
actually, something that the government in Baghdad was not 
interested in. By July and August they were not interested in 
having that large of a mission up north, which I think belies 
or goes against the criticism that somehow if we had offered 
more troops it would have been easier for the Iraqi domestic 
political environment to accept them.
    Then the question becomes whether we, basically, set 
ourselves----
    Mr. Ackerman. How many troops would they have accepted? 
What did they want?
    Mr. Kahl. It was not about troop numbers. At the end of the 
day, the fundamental issue was about our requirement for legal 
immunities for our troops that were put in Article 12.
    Mr. Ackerman. Right, under the Status of Forces Agreement.
    Mr. Kahl. Correct.
    So, under the current security agreement, or under the 
security agreement that the Bush administration negotiated, 
that you made reference to, it called for our forces to be out 
by the end of 2011.
    Under Article 12 of that agreement, we had a certain level 
of protection for our forces, jurisdictional protection. All 
the Obama administration asked is, that if there was going to 
be a follow-on agreement it had the same article in it. That is 
it. It was not an unreasonable request. It was the same request 
of the Bush administration.
    Mr. Ackerman. President Obama was trying to protect the 
security of our troops.
    Mr. Kahl. And, in fact, had he done anything otherwise, 
this body and most of the folks on this panel, would have 
crucified him for doing it.
    Mr. Ackerman. Did we or did we not have an obligation under 
international law for this administration to follow what the 
previous administration obligated us to?
    Mr. Kahl. Well, there is two things. Under Iraqi--there was 
a consensus in the U.S. Government's interagency to include 
folks who were in the Bush administration before, that it was a 
legal requirement for protections to go through the Council of 
Representatives if they were going to be binding under Iraq's 
constitution. That was our legal communities' views, not the 
Pentagon, State Department, the White House, but also Prime 
Minister Maliki's legal advisors' views, and there was nobody 
in Iraq that contradicted it.
    And, the last agreement went through the Council of 
Representatives. So, contrary to Dr. Kagan's point that there 
was no reason it had to go through the Council of 
Representatives, there was every reason that it had to go 
through the Council of Representatives, because the previous 
agreement did.
    So, the Obama administration did not manufacture some 
hurdle that was new and came out of no where, it simply said, 
if you want forces to remain in the country you have to give 
them the same protections you gave them before. And, that 
proved politically untenable for the Iraqis.
    Mr. Chabot. The gentleman's time has expired.
    The gentleman from California, Mr. Rohrbacher, is 
recognized for 5 minutes.
    Mr. Rohrbacher. Thank you very much, Mr. Chairman.
    Let me see if I can poll the witnesses here on a yes or no, 
if possible.
    Given what we know now, and what has happened in Iraq, was 
the decision to send U.S. forces to liberate Iraq from the 
Saddam Hussein dictatorship, was it the right decision, with 
all that we know now? Just a yes or no, or if you cannot answer 
that is fine.
    General? Was it the right decision?
    General Keane. Yes.
    Mr. Rohrbacher. All right.
    General Dubik. I would have to say for myself, I am 
ambiguous.
    Mr. Rohrbacher. Ambiguous? Okay.
    Ms. Kagan. I do not think that the question can be 
answered, because the decision makers at the time knew what 
they knew at the time.
    Mr. Rohrbacher. No, no. I am asking you, knowing what you 
know now, was it worth it?
    Ms. Kagan. I am not sure that that question can be 
answered.
    Mr. Rohrbacher. Okay. So, we have, yes, and two ambiguous, 
and, Doctor?
    Mr. Kahl. Not based on the premises for which the war was 
originally justified, and probably not worth $1 trillion and 
4,500 American dead.
    Mr. Rohrbacher. But, knowing what we know now, was it worth 
it going in with U.S. troops?
    Mr. Kahl. Not based on the premise for which the war was.
    Mr. Rohrbacher. Okay. We have a no, yes, and two ambiguous.
    Let me just say that I have been around for a while, 24 
years now here in Congress, and worked in the Reagan White 
House for 7 years in Washington. A lot of these decisions had 
to be made, and I will say the worst decision, foreign policy 
decision, that I have seen in my 30 years of service at high 
levels in Washington, this was the worst decision.
    I am sorry, General. Over 4,500 American troops are dead, 
and tens of thousands wounded, $1 trillion of added debt to our 
country, and from what I can see the people of Iraq are not 
even appreciative of what we have done.
    I think that was, it is beyond, there is not even anything 
that comes close to how bad that is. And, for us not to be able 
to say that outright, and understand that the American people 
are so war weary now, that we will not be able to do other 
commitments that might be really important for our national 
security.
    Keeping Saddam Hussein in power might have been the best 
deal for our national security, considering that the mullah 
regime in Iran is the regime that we have to fear the most, in 
terms of our own national security interest in that part of the 
world.
    And, when you think of that, and then you think that we 
lost all of these lives, well, I think that we ought to do some 
soul searching, all of us Americans who are engaged in policy, 
and I went along with it. I mean, I did not listen to Gary 
Ackerman, I went along with it, and the President, it was after 
9/11, and I was going to support our President in this war 
against radical Islam, and this had nothing to do with the war 
in radical Islam. It had everything to do with something, and I 
still do not know what it is, that drove us to say that we had 
to get rid of that dictatorship, because there are lots of 
dictators around the world.
    And, let us just note this other thing for the people on 
the other side of this issue. I am sick and tired of also 
hearing that all of these casualties that were caused by 
America's intervention, Saddam Hussein murdered 100,000 of his 
own citizens prior to our liberation. There are mass graves 
that were found.
    Now, we do not have, there is no reason in the world we 
should be trading American lives to stop every dictator who is 
slaughtering his own people. But, those people who would like 
to suggest that the United States troops in some way were 
responsible for a higher level of killing of innocent civilians 
are wrong. They are wrong as well, and they are wrong because 
the killing that took place after we liberated that country 
from Saddam Hussein, most of it was done by interfaith Muslim-
on-Muslim killing each other, not American troops going into 
neighborhoods and shooting up neighborhoods because we wanted 
to exert our influence.
    So, I find a little bit of an inability on both sides of 
this issue looking back, the ability on both the left and the 
right, to be able to look very honestly at this issue. And, I 
would implore my fellow Members of Congress, and those of you 
who testify before Congress, and are influenced--have influence 
here in Washington on decision makers, to do some soul 
searching on this. I am trying to be honest about it, and I 
think it behooves us to remember those 4,500 men who gave their 
lives, and all those tens of thousands whose lives are probably 
ruined because of this, and what we got out of it. It is not 
even close, that was not worth their lives.
    Thank you very much.
    Mr. Chabot. The gentleman's time has expired.
    Mr. Ackerman. Mr. Chairman?
    Mr. Chabot. His time has expired.
    Mr. Ackerman. The gentleman invoked my name, if I could 
just interject for 30 seconds.
    Mr. Chabot. All right. The gentleman is recognized for 30 
seconds.
    Mr. Ackerman. I just want to say to the gentleman, despite 
your years of experience that you've echoed my word sand 
sentiments exactly. I did mean culpa during my opening 
statement, following President Bush so blindly into this, and 
expressed the same sentiments, and almost the same words. I'll 
share them with you later.
    I want to thank you for your honesty as always.
    Mr. Chabot. We will go into a second round at this point, 
and I yield myself 5 minutes.
    Just commenting on the gentleman from California, who I 
have great respect for, and I have to agree a bit, but mostly 
disagree with his statement. I don't know that it's fair to say 
knowing what we know now would you have gone in, et cetera, you 
are free to ask that question.
    But, the answer to that question is complicated, I believe, 
by the fact that this administration pulled out American 
troops, all the troops out here, which was not anticipated or 
expected by our military or anybody, really, or the Iraqis or 
anybody else, until it actually happened. That was not 
expected. That's not what we did in Korea. That's not what we 
did in Bosnia. That's not what we did in a whole range of other 
places where we had troops.
    The idea of they would be there to maintain the peace, to 
maintain our influence, to, actually, make sure that that blood 
and treasure that we expended did mean something.
    But, I would argue, by pulling those troops out, by, 
essentially, indicating to Maliki right at the end there that 
that's what we were going to do, as the General said when we 
said 10,000, and then not 10,000 but zero, that sent the 
message out, the United States is getting the heck out. And so 
then, they had to scramble and do whatever they needed to do to 
survive. And, that's where the Iranian influence is coming 
through in spades there at this point, I mean, huge influence. 
And, that's about the last thing that's in the best interest of 
our country, or the region, or the Iraqi people.
    I think they had a chance. Maybe they still do. I am not 
sure about that at this point. I don't know if they are going 
to be able to make it with our folks, essentially, out of 
there. How in the world, you know, they turned over to the 
State Department, how are the State Department people supposed 
to be out there and dealing with folks, they can not leave the 
compound now because there is no military folks there to 
protect them.
    And then, we rail against Black Water or the folks that 
have followed in their footprints at this point. I mean, so we 
made it an impossible situation. I would argue this 
administration did that to maintain, to keep a campaign 
promise, and that was a terrible mistake in my view.
    Mr. Ackerman. Mr. Chairman?
    Mr. Chabot. I have two more things I have--okay, I yield, 
just briefly, because I have two questions I want to ask.
    Mr. Ackerman. Just on that point.
    Mr. Chabot. Yes.
    Mr. Ackerman. This administration did not do that to keep a 
campaign promise, although it kept it. This administration did 
it to keep President Bush's word, and the word of the United 
States, that by December 31, 2011, all, all, all, 100 percent, 
said President Bush and signed it, of our troops would be out. 
This should not come, as you said, a surprise to us.
    Mr. Chabot. Reclaiming my time, I mean, it was understood, 
and the excuse given at the end was, we could not get the 
Iraqis permission for the indemnification of our troops.
    Mr. Ackerman. No, President Bush could not get it.
    Mr. Chabot. I think it was a lackadaisical effort that was 
made in order to attain that permission of Iraq for our folks 
to be there without being prosecuted, et cetera. But, let me 
flip into two other quick questions here.
    One, Dr. Kagan, there is a bit of confusion here that I 
think Dr. Kahl raised here, relative to your statement about 
the security in Iraq, that it is deteriorating. Dr. Kahl raised 
some doubt about your data. How do we know what is actually 
occurring on the ground there? What level of confidence do we 
have that our information and our intelligence is good? And, 
what are the sources of your data?
    And then, one other quick point, and any of the members can 
do this, how does the PKK's presence in northern Iraq affect 
our interests, and what are we doing about that?
    So, Dr. Kagan on the one, and then any of the other 
witnesses who would like to take the other one quickly. I've 
got not too long on either one.
    Ms. Kagan. On the subject of our data, of course, when the 
U.S. military had a large presence within Iraq it had and 
created its own sources of data through its refined and 
granular knowledge of what was going on on the ground in Iraq, 
because it was disbursed throughout the country.
    As we pulled out our troops, we lost situational awareness, 
because every soldier is a sensor, and if you were a soldier 
you had less situational awareness.
    Right now, the data that I am using, as I said, is the data 
of Dr. Michael Knights, the Lafer Fellow at the Washington 
Institute for Near East Policy. He has retained and maintained 
a database for years, and his data is accrued from both Iraqi 
security forces and open sources, and sources throughout the 
country.
    What I think is, actually, interesting about his data that 
I think is probably not reflected in all of our data is that he 
has excellent sources in southern Iraq, and it is in southern 
Iraq where we do see Shia-on-Shia violence actually re-
emerging. The re-emergency of Shia militant groups, likewise a 
clerical struggle in Najaf that really does put into doubt 
whether or not the Iraqis will be able to retain their 
religious independence from Iran.
    The point is that our situational awareness should come 
from competing data sources right now, rather than being 
reliant on a single assessment.
    Mr. Chabot. Okay. Could I have unanimous consent to yield 
myself an additional minute here, just--would anyone like to 
comment on the PKK question?
    Okay, if not, I will yield back that time, and Mr. Ackerman 
is recognized for 5 minutes.
    Mr. Ackerman. I would ask Dr. Kahl to comment on that, but 
first I want to ask a question of General Keane, if I may.
    Try as he might, President Obama could not get an extension 
of the deal with the change to protect the American troops. 
Should he have left the American troops in Iraq, without being 
able to get the guarantee that we needed?
    General Keane. In my judgment, no. Also, but I would like 
to correct something that you said. It is a fact that the Bush 
administration negotiated the Status of Forces Agreement, and 
that Status of Forces Agreement terminated our involvement with 
forces by the end of 2011. That is a fact.
    But, it is also a fact that no Iraqi politician could 
participate in that agreement who was facing an upcoming 
election, and the wink and the nod that was very well 
understood with the Iraqi Government, its highest officials, 
and our Ambassador and our senior military commanders, that 
after their election we would renegotiate what the size and 
capability of a force would be in Iraq.
    Mr. Ackerman. Dr. Kahl?
    Mr. Kahl. Well, if there was a wink and a nod between the 
Bush administration and the Maliki government, nobody told 
either the Bush administration or the Maliki government, 
because, actually, the negotiations led up by the Obama 
administration were led by Ambassador Jeffrey, a Bush 
administration official, and Brett McGurk, a Bush 
administration official, negotiating with the same leaders that 
General Keane referenced, supposedly were in on this secret 
agreement to extend the troop presence beyond 2008.
    The reality is, the same political pressures that the Iraqi 
politicians faced in the fall of 2008, which required the time 
line for the departure of U.S. forces, also was the reason why 
on October 4th they were unanimous in not being willing to send 
a follow-on agreement to the Corps, with adequate legal 
protections, which General Keane admits, you know, was required 
for us to leave forces behind.
    And, by the way, it is a view that was shared by the 
chairman of the Joint Chiefs of Staff, Secretary Gates, 
Secretary Pannetta, and the President of the United States.
    All we were asking for was the same protections that they 
had under Article 12 of the existing agreement. It was not 
domestically possible for the Iraqis, so we are where we are.
    I want to say one thing about the data. All the data is 
suspect for some of the reasons that Kim points out, that Dr. 
Kagan points out, which is that we don't have high visibility 
so we are relying on various open source materials, although 
that visibility of reduction was a result of us leaving largely 
the cities in the summer of 2009 under the security agreement, 
not the departure of our forces from the country.
    I do think we can say a couple things about the data. One, 
there has been an uptick in AQI activity, nobody is disputing 
that.
    Second, there has been a decrease in violence in the south, 
in fact, the data that Dr. Kagan references shows that, and 
largely Shia militant activity has gone down.
    And lastly, overall our intelligence community looking at 
the Knights' data that Dr. Kagan references, and comparing it 
with that data and other open source material, concludes that 
the overall levels of violence have not actually gone up since 
the departure of U.S. forces.
    So, I do not know which is right, although that strikes me 
as a more comprehensive assessment, and our intelligence 
community, you know, has, basically, concluded that overall 
level of violence has not gone up, even as AQI activity has 
ticked up.
    Mr. Ackerman. Thank you.
    General, I am curious, was there anything else to this 
secret wink and nod agreement that the Bush administration had 
with the Iraqis?
    General Keane. I mean, in terms of it being secret, I would 
not go that far. I mean, it was well documented in the media. I 
am confident, I do not want to speak for him, but Ryan Crocker 
was here he would flat tell you that we all knew that is what 
had been discussed.
    Mr. Ackerman. Without the agreement, can you enforce a wink 
and a nod if somebody picked up American troops and decided to 
prosecute them, to say to the Iraqis, didn't we have a wink and 
a nod agreement?
    General Keane. No, no.
    Mr. Ackerman. Or, would they rely on the written documents?
    General Keane. What that--what the so-called other official 
agreement actually was, is that they would renegotiate a new 
Status of Forces Agreement that would permit a residual force 
to stay post 2011, to extend that document beyond what the 
current document did. That is all that--that is all that was 
intended to be.
    Mr. Ackerman. And, would it have----
    General Keane. It was a common understanding that the 
government wanted that force to stay, and so did we.
    Mr. Ackerman [continuing]. Would it have been under the 
terms that the Iraqis wanted it?
    General Keane. Yes, absolutely they wanted it.
    Mr. Ackerman. Not the terms that we wanted?
    General Keane. We both wanted it.
    Mr. Ackerman. Same terms?
    General Keane. Well, the terms would have been negotiated. 
They both wanted a force.
    Mr. Ackerman. But, the negotiation up until that moment 
failed, that is why we did not have an agreement.
    General Keane. The fact of the matter is, negotiations 
broke down, I think, as I tried to indicate, I think at some 
point the Maliki government realized it was in a totally 
different relationship with this administration.
    Mr. Ackerman. But, they had the same agreement that they 
had with the Bush administration.
    General Keane. Certainly the Bush administration agreement, 
the SOFA----
    Mr. Ackerman. That was a legal agreement.
    General Keane [continuing]. That was a legal document that 
was in place at the time. It ended in 2011, correct.
    Mr. Ackerman. But, that was President Bush's agreement.
    General Keane. That is correct.
    Mr. Chabot. The gentleman's time has expired.
    The gentleman from California is recognized, Mr. 
Rohrbacher, who, by the way, is the chairman of the 
Subcommittee on Investigations and Oversight.
    Mr. Rohrbacher. Let me just suggest that all of this, you 
know, back and forth on whether or not Maliki was going to 
allow us to leave our forces there or not, I found--frankly, I 
find it totally irrelevant. It is assuming that people--that it 
is in the interest of the American people to have our forces 
there.
    The bottom line is, once we had decided that the people of 
Iraq were going to defend themselves, the sooner we got out of 
there the better. And, if we lose 50 more, 100 more, or 200 
more, or 500 more American lives, what for?
    Just, I mean, this is absurd. Oh, we are going to negotiate 
so we can keep our guys in jeopardy. Who is watching out for 
the American soldier, the Marine out there giving his life? We 
should be caring about him. That is who we should be caring 
about, and I was raised in a Marine family, and I remember 
going to breakfast with my Dad when I was 7 years old. And, we 
had two 19-year-old young Marines with us, and they both had no 
legs. They just got back from Korea. I often wondered what 
happened to those guys, whether or not they have families, 
whether or not they had a decent life, like they gave to all of 
us.
    I do not think that a lack of forces is what has driven a 
Shiite population, a majority Shiite population, toward a 
better relationship with the mullahs. I do not believe that 
that is what is driven there, and what we have seen is a fight 
in the Muslim world between two sects that are, you know, at a 
blood feud with one another. I do not see Maliki, and the 
Sunnis in his country, after we would leave no matter when that 
was, would not re-establish a closer relationship with the 
mullahs.
    And now that we have this pro-mullah regime, am I still 
hearing that you fellows think that we should be pouring more 
money into this? I mean, training, we are going to provide 
training, there is a proposal to spend $900 million dollars, to 
train the Iraqi police force. So, we are borrowing $900 million 
from China to train the police force of a country that is 
headed by people who were demonstrably anti American? Is that 
what we should do?
    I ask the panel, should we be spending $900 million 
training their police force?
    General Dubik. I would be happy to answer that, Mr. 
Representative. The answer is no, as I said in my remarks. The 
current State Department plan for training police is not the 
plan we should follow. We do not need to spend that much money, 
but we do need to be involved with the development of the 
police department, and the police forces, as well as the 
security forces, for our interest.
    Mr. Rohrbacher. Should we be giving them credit after $1 
trillion that we have already borrowed from China?
    General Dubik. We should be giving them lots of credit.
    Mr. Rohrbacher. Okay.
    General Dubik. You are talking about money credit, I am 
talking about credit for what they have achieved.
    Mr. Rohrbacher. No, no, I am talking about budget credit 
here. I mean, we have borrowed, and we demonstrably have 
borrowed 1 trillion extra dollars in order to deal with them, 
not to mention all the other sacrifices that we have made in 
blood.
    Should we be borrowing hundreds of millions of dollars more 
now? It is my understanding, my understanding, I went to Iraq 
and they kicked me out of the country, because I had the 
timidity to accept and suggest that maybe when the oil and gas 
money comes in they might start repaying us. And, there answer 
was, get the hell out of my country. And, Maliki gave me about, 
you know, 1\1/2\ hours to get out. Well, that is fine. I mean, 
he is in charge of his country.
    He is not in charge, he would not be in charge, except for 
all the American lives that have been lost getting him there 
and getting rid of Saddam Hussein. And again, no one should 
ever, and this is what really gets me mad about the left, is 
they are always talking about, yes, Americans came in and all 
these lives were lost. Saddam Hussein was a bloody, vicious 
dictator, and it is good that he was gone, and, actually, he 
was probably costing more Iraqi lives than during the 
liberation. But, that is not America's business to be spending 
thousands and thousands of American lives and trillions of 
dollars of our wealth all over the world.
    As it has resulted, we now are less respected everywhere in 
the world. We, actually, when we took a step too far, we have 
ended up with less respect than had we not gone in in the first 
place.
    Thank you very much, Mr. Chairman.
    Mr. Chabot. Thank you very much.
    Whereas, the panel up here does not necessarily agree on 
all these things, I think one thing we do agree on is that 
there was tremendous sacrifice by the men and women from this 
country that went over there, some who lost their lives, some 
who lost limbs, and some are in hospitals around the country. 
We need to do everything humanly possible to take care of those 
people, and make sure that they have the best quality of lives 
that can possibly happen. That should be our number one 
concern, I think, at this point. I think we would all agree on 
that.
    I want to thank the distinguished panel here for their 
testimony this afternoon, thank the members that are here this 
afternoon, and with unanimous consent the members will have 5 
days to supplement their statements, ask questions, and submit 
to the panel.
    If there is no further business to come before the 
committee, we are adjourned.
    Thank you very much.
    [Whereupon, at 3:47 p.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


               <F-dash>\\<careof><Rx><brit-pound>t<box>s\
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre></body></html>
